                                      SOCIAL SECURITY
MEMORANDUM
Date:   August 18, 2003                                                      Refer To:

To:     James F. Martin
        Regional Commissioner
         Chicago

From:   Assistant Inspector General
         for Audit

Subject: Administrative Costs Claimed by the Illinois Bureau of Disability Determination Services
        (A-05-02-22019)


        The attached final report presents the results of our audit. Our objectives were to
        evaluate the Illinois Bureau of Disability Determination Services’ internal controls over
        the accounting and reporting of administrative costs, determine whether costs claimed
        were allowable and allocable, and funds were properly drawn.

        Please comment within 60 days from the date of this memorandum on corrective action
        taken or planned on each recommendation. If you wish to discuss the final report,
        please call me or have your staff contact Bill Fernandez, Director, Western Audit
        Division, at (510) 970-1739.




                                                   S
                                                   Steven L. Schaeffer

        Attachment

        cc:
        Carol L. Adams, Ph.D., Secretary, Department of Human Services
        Ann P. Robert, Deputy Director, Illinois Bureau of Disability Determination Services
        Lenore R. Carlson, Associate Commissioner, Office of Disability Determinations
        Jeff Hild, Deputy Associate Commissioner, Office of Financial Policy and Operations
        Candace Skurnik, Director, Management Analysis and Audit Program Support Staff
Carol Adams, Ph.D., Secretary
Illinois Department of Human Services
100 S. Grand Ave., 3rd Floor
Springfield, IL 62762

Ann P. Robert, Deputy Director
Illinois Bureau of Disability Determination Services
100 North First Street
Springfield, IL 62701
           OFFICE OF
    THE INSPECTOR GENERAL


SOCIAL SECURITY ADMINISTRATION


     ADMINISTRATIVE COSTS
        CLAIMED BY THE
 ILLINOIS BUREAU OF DISABILITY
    DETERMINATION SERVICES

  August 2003    A-05-02-22019



 AUDIT REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                       Executive Summary
OBJECTIVES
The objectives of our audit were to (1) evaluate the Illinois Bureau of Disability
Determination Services (IL-BDDS) internal controls over the accounting and reporting of
the administrative costs, (2) determine whether costs claimed were allowable and
allocable, and (3) determine whether funds were properly drawn.

BACKGROUND
Disability determinations for SSA’s Title II and Title XVI programs are performed by
Disability Determination Services (DDS) in each State or other responsible jurisdiction,
according to Federal regulations. Each DDS determines claimants’ disabilities and
ensures that adequate evidence is available to support its determinations. To make
proper disability determinations, each DDS is authorized to purchase consultative
examinations (CE) to supplement evidence obtained from the claimants’ physicians or
other treating sources. SSA reimburses the DDS for 100 percent of allowable
expenditures. IL-BDDS draws funds to pay its costs under an agreement with the
Federal Government.

RESULTS OF REVIEW
Our review of administrative costs claimed by IL-BDDS disclosed that $4,034,660 was
unallowable because provisional rates used to calculate indirect costs were higher than
the negotiated actual rates. In addition, IL-BDDS did not provide documentation to
support its position that CE rates complied with regulatory limits. We estimated
potential savings from limiting rates to those charged for comparable medical services
under Medicare at $1,247,932 for the 3-year audit period. We also identified $668,312
recorded in the incorrect fiscal years (FY); IL-BDDS agreed $228,250 of this amount
was claimed for reimbursement in the wrong FY.

CONCLUSIONS AND RECOMMENDATIONS

We recommend SSA recover $4,034,660 for costs claimed based on a provisional
indirect cost rate. In addition, SSA should ensure IL-BDDS has documentation to
confirm its CE payments are limited to the highest rates allowable for comparable
medical services. SSA should also ensure IL-BDDS reclassify $228,250 reported as
FY 1998 costs to FY 1999 and establish procedures to report costs in the proper FYs.




Administrative Costs Claimed by the Illinois BDDS (A-05-02-22019)                     i
AGENCY COMMENTS AND OIG RESPONSE

SSA partially agreed with our four recommendations. See Appendix C for the full text of
SSA’s comments. We generally concurred with SSA’s comments and have revised the
report accordingly. A discussion of comments from the Illinois Department of Human
Services (IL-DHS) and our response is shown in “Conclusions and Recommendations,”
pages 8 and 9 of this report.




Administrative Costs Claimed by the Illinois BDDS (A-05-02-22019)                  ii
                                                          Table of Contents
                                                                                                             Page

INTRODUCTION ......................................................................................................1

RESULTS OF REVIEW ...........................................................................................4

INDIRECT COSTS ....................................................................................................4

MEDICAL COSTS .....................................................................................................5

INCORRECT FISCAL YEAR PAYMENTS………………………………………………6

CONCLUSIONS AND RECOMMENDATIONS.........................................................7

OTHER MATTERS ...................................................................................................9


APPENDICES

APPENDIX A – Sampling Methodology

APPENDIX B – Illinois Bureau of Disability Determination Services Consultative
             Examination Costs

APPENDIX C – Agency Comments

APPENDIX D – OIG Contacts and Staff Acknowledgments




Administrative Costs Claimed by the Illinois BDDS (A-05-02-22019)
                                                                    Acronyms
Act                   Social Security Act

AMA                   American Medical Association

ASAP                  Automated Standard Application for Payments

CAP                   Cost Allocation Plan

CE                    Consultative Examination

CFR                   Code of Federal Regulations

CMIA                  Cash Management Improvement Act

CPT                   Current Procedural Terminology

DDS                   Disability Determination Services

DI                    Disability Insurance

Form SSA-4513         State Agency Report of Obligations for SSA Disability Programs

FY                    Fiscal Year

HHS                   Department of Health and Human Services

IL-BDDS               Illinois Bureau of Disability Determination Services

IL-DHS                Illinois Department of Human Services

MOU                   Memorandum of Understanding

OMB                   Office of Management and Budget

POMS                  Program Operations Manual System

SSA                   Social Security Administration

SSI                   Supplemental Security Income

Treasury              Department of the Treasury



Administrative Costs Claimed by the Illinois BDDS (A-05-02-22019)
                                                                   Introduction
OBJECTIVES
The objectives of our audit were to (1) evaluate the Illinois Bureau of Disability
Determination Services (IL-BDDS) internal controls over the accounting and reporting of
administrative costs, (2) determine whether costs claimed were allowable and allocable,
and (3) determine whether funds were properly drawn.

BACKGROUND
The Disability Insurance (DI) program was established in 1954 under Title II of the
Social Security Act (Act). The program provides a benefit to wage earners and their
families in the event the wage earner becomes disabled. The Supplemental Security
Income (SSI) program was created as a result of the Social Security Amendments of
1972 with an effective date of January 1, 1974. SSI (Title XVI of the Act) provides
income to financially needy individuals who are aged, blind, and/or disabled.

The Social Security Administration (SSA) is primarily responsible for implementing
policies governing the development of disability claims under the DI and SSI programs.
Disability determinations under both DI and SSI are performed by Disability
Determination Services (DDS) in each State or other responsible jurisdiction according
to Federal laws and regulations.1 In carrying out its obligation, each DDS is responsible
for determining claimants’ disabilities and ensuring that adequate evidence is available
to support its determinations. To assist in making proper disability determinations, each
DDS is authorized to purchase such medical consultative examinations (CE) as x-rays
and laboratory tests to supplement evidence obtained from the claimants’ physicians or
other treating sources.

SSA authorizes an annual budget to reimburse the DDS for 100 percent of allowable
expenditures. The DDS draws down the Federal funds through the Department of the
Treasury’s (Treasury) Automated Standard Application for Payments (ASAP) system.
Funds are drawn down from the Treasury to pay for program expenditures according to
Federal regulations2 and intergovernmental agreements entered into by Treasury and
States under the authority of the Cash Management Improvement Act of 1990 (CMIA).3
The DDS submits a State Agency Report of Obligations for SSA Disability Programs
(Form SSA-4513) quarterly to SSA. Each form reports cumulative program
disbursements and unliquidated obligations, as of the end of that fiscal quarter, for a
specific fiscal year's (FY) authorized appropriation.

1
    42 U.S.C. § 421; 20 CFR Part 404, Subpart Q, and Part 416, Subpart J.
2
    31 CFR § 205.
3
    Pub. L. No. 101-453.


Administrative Costs Claimed by the Illinois BDDS (A-05-02-22019)                1
IL-BDDS is a component of the Illinois Department of Human Services (IL-DHS).
Indirect costs are allocated to IL-BDDS through the application of an indirect cost rate
under a plan which is approved by the Department of Health and Human Services
(HHS).

SCOPE AND METHODOLOGY
We reviewed the administrative costs IL-BDDS reported on its Form SSA-4513 for
FYs 1999 through 2001. We obtained documentation to evaluate recorded financial
transactions in terms of their allowability under Federal law and applicable regulations
including Office of Management and Budget (OMB) Circular A-87, Cost Principles for
State, Local and Indian Tribal Governments, and appropriateness, as defined by SSA’s
Program Operations Manual System (POMS).

We also:

•   Reviewed applicable Federal regulations including POMS guidance on fiscal and
    administrative management and other instructions pertaining to administrative costs
    incurred by IL-BDDS and the draw down of SSA funds covered by the States’
    agreement with Treasury under the CMIA.

•   Reviewed a finding reported by KPMG, Certified Public Accountants, as part of the
    Illinois single audit. We did not rely on the single audit work because of the limited
    scope of the review performed at IL-BDDS.

•   Interviewed staff at IL-BDDS, IL-DHS, and the SSA Region V Center for Disability.

•   Reviewed State policies and procedures related to personnel, medical, and all other
    nonpersonnel costs.

•   Reviewed the Memoranda of Understanding (MOU) between SSA and the IL-BDDS
    for a State function.

•   Evaluated and tested internal controls over accounting, financial reporting and cash
    management.

•   Reviewed the reconciliation of State accounting records to the administrative costs
    reported by IL-BDDS on the Form SSA-4513 for FYs 1999 through 2001.

•   Examined the administrative expenditures (personnel, medical service, and all other
    nonpersonnel costs) claimed by IL-BDDS for FYs 1999 through 2001. We used
    statistical sampling to select documents to test for support of medical and all other
    nonpersonnel costs (see Appendix A).

•   Examined the indirect costs claimed by IL-BDDS for FYs 1999 through 2001 and the
    corresponding IL-BDDS Cost Allocation Plans (CAP).


Administrative Costs Claimed by the Illinois BDDS (A-05-02-22019)                   2
•   Compared the amount of SSA funds drawn down to the claimed expenditures
    reported on the Form SSA-4513.

•   Selected six types of CEs to compare IL-BDDS fees for service to Medicare fees for
    the same or similar services.

•   Discussed indirect cost issues with IL-DHS personnel, the contractor (Maximus, Inc.)
    that prepares the State’s cost allocation plan, and the cognizant official from HHS.

We performed work at the IL-BDDS in Springfield, Illinois, and the SSA Regional Office
in Chicago, Illinois. We conducted field work from July 2001 through December 2002.
The audit was conducted in accordance with applicable generally accepted government
auditing standards.




Administrative Costs Claimed by the Illinois BDDS (A-05-02-22019)               3
                                                  Results of Review
Our review of administrative costs claimed by IL-BDDS disclosed that obligations
reported to SSA were overstated by $4,034,660 because IL-BDDS used a provisional
indirect cost rate for the 3-year audit period. Second, we identified potential cost
savings of $1,247,932 for CE fees that were paid in excess of the Medicare rates for
comparative medical services. Third, we identified $668,312 in costs that IL-BDDS
recorded in incorrect FYs.

INDIRECT COSTS
IL-BDDS claimed $11,201,872 in indirect costs for the period October 1998 through
September 2001. The claimed indirect costs were calculated by multiplying a
"provisional rate" of 13.9 percent by the allocation base of payroll costs. IL-BDDS used
the same "provisional rate" to calculate indirect costs for all 3 years of our audit period.
The provisional rate was established on an interim basis on behalf of the Federal
Government until HHS negotiated actual rates.

The rates were finalized during 2002 at 9.6 percent for the first 3 quarters of FY 1999
and 7.5 percent through FY 2000. The primary reason for the lower actual rates was
the exclusion of claimed indirect costs for activities that provided no benefits to
IL-BDDS. We discussed our conclusions with the cognizant HHS official for negotiating
the rate. The negotiator concurred and stated the rate was being substantially reduced.
He added that the 7.5 percent rate is effective for FY 2001 and subsequent periods on a
provisional basis until approval of a new rate. The use of the provisional rate resulted in
$4,034,660 of indirect costs claimed in excess of allowable costs calculated using the
actual rates during the 3-year audit period. We have identified the allowable and
unallowable costs for each FY in the following table. Allowable and unallowable indirect
costs for FY 2001 are subject to adjustment pending determination of the actual rate for
that FY.

  FY      PERCENTAGE            AMOUNT CLAIMED             ALLOWABLE            UNALLOWABLE
 1999     (see note below)         $3,790,148               $2,662,014            $1,128,134
 2000           7.5                $3,599,266               $2,183,235            $1,416,031
 2001           7.5                $3,812,458               $2,321,963            $1,490,495

         TOTALS                     $11,201,872              $7,167,212             $4,034,660

Note: The calculation of allowable costs was based on actual negotiation rates, 9.6 percent for the first
3 quarters and 7.5 percent for the 4th quarter of FY 1999.




Administrative Costs Claimed by the Illinois BDDS (A-05-02-22019)                                 4
MEDICAL COSTS
IL-BDDS did not provide documentation to confirm its CE rates were consistent with
applicable policies and procedures. We assessed the reasonableness of the rates by
relating its fees with the American Medical Association’s (AMA) Current Procedural
Terminology (CPT) codes for comparable medical services. Using comparable
Medicare fees, we estimated potential cost savings of $1,247,932 during the 3-year
audit period (see Appendix B).

Federal regulations require that each State determine the payment rates for medical or
other services necessary to make determinations of disability. The rates may not
exceed the highest rate paid by Federal or other agencies in the State for the same or
similar types of service. In addition, the State must maintain documentation to support
the payment rates used.4

SSA’s procedures state that the DDS should fully document its methodology for
establishing and updating payment rates for medical services. When possible, the DDS
should also use the AMA CPT coding system to identify each procedure in its fee
schedule.5 A standard coding system is necessary to (1) provide a crosswalk between
the DDS and Medicare codes for the same or similar types of service, and (2) enable
SSA and IL-BDDS to readily identify, monitor, and compare CE costs against fees paid
by other agencies.

In January 1999, SSA’s Office of Disability convened a workgroup to provide guidance
for establishing fee schedules for medical procedures.6 SSA stated that each State
should be cost-efficient and make every attempt to negotiate fees below the highest
allowable rates. However, SSA concluded that the maximum payment rates shall be
based on the Medicare fee schedule if the DDS does not use other State agency fee
schedules for the same or similar types of service. To identify the applicable Medicare
fees for its CEs, SSA stated that the DDS could use one of four CPT codes established
for each medical procedure based on the complexity of the examination. Specifically,
SSA stated that the DDS could use CPT code 99243 (that is, a detailed 40-minute
examination) for most of its CEs.

IL-BDDS, however, did not use the Medicare fee schedule to develop its CE billing
schedule. Also, IL-BDDS did not provide us with the basis for its CE rates. We,
therefore, selected six CE codes to test the reasonableness of the fees. Five of the six
codes had already been “cross-walked” to AMA's CPT codes in a prior audit, Fees Paid
by State Disability Determination Services to Purchase Consultative Examinations,
(A-07-99-21004) issued in September 2001. For the remaining CE code, we developed
a comparable Medicare fee based on similar services according to a medically related

4
    20 CFR §§ 404.1624 and 416.1024.
5
    POMS, section DI 39545.410.
6
    SSA, Office of Disability, Medical Procedures Fee Schedule Workgroup Report, January 1999.


Administrative Costs Claimed by the Illinois BDDS (A-05-02-22019)                                5
CPT code. The six codes represented 56 percent of total CE costs claimed during the
audit period. We used these CPT codes to compare Medicare fees to the fees paid by
IL-BDDS for CE services in the same geographic areas. We identified CE rates in
excess of comparable Medicare fees for four of the codes. However, we recognize
other CPT codes may apply to these comparisons and the length of time to complete
CEs is also a factor in determining the correct CE fee. Accordingly, SSA should
improve its oversight of CE fees and limit future payments to the highest rate paid by
Federal or other State agencies.

INCORRECT FISCAL YEAR PAYMENTS
We identified $668,312 that was recorded in the accounting system in the wrong FYs,
although the costs were otherwise acceptable for reimbursement by SSA. These costs
included $440,062 for medical services that were recorded in one FY, but obligated and
incurred in a prior FY. We were unable to determine the FY in which IL-BDDS claimed
these costs. OMB Circular A-87 states that costs are allocable to the year that
benefited from the services, which is the year the services were rendered. These costs
were recorded in the wrong FY because the IL-BDDS did not maintain a "cut-off" to
record costs in the proper year.

The following chart presents the medical payments that should have been recorded as
costs incurred in a prior year.

   FY Incurred             FY Recorded          Number of Invoices            Amount
      1998                     1999                2,205                      $87,051
      1999                     2000                5,393                      277,805
      2000                     2001                2,015                       75,206

     TOTALS                                           9,613                  $440,062

In addition, we identified $150,000 in postage expenses and $78,250 in building
leasehold improvement costs disbursed in FY 1999, but reported as costs incurred in
FY 1998. Section 1502(a) of Title 31, United States Code, provides, in part, that:

       “[t]he balance of an appropriation or fund limited for obligation to a definite period
       is available only for payment of expenses properly incurred during the period of
       availability…. However, the appropriation or fund is not available for expenditure
       for a period beyond the period otherwise authorized by law.”

Since the postage was purchased in FY 1999 and the leasehold improvements were
performed during FY 1999, there was no benefit provided in FY 1998.

Improperly shifting costs between FYs potentially impacts total expenditures authorized
for reimbursement. The procedure also prevents SSA from accurately monitoring the
status of States’ expenditures and unexpended appropriations. The effect is to reduce
the Agency’s ability to manage the allocation and use of budgeted funds among States.


Administrative Costs Claimed by the Illinois BDDS (A-05-02-22019)                    6
                                            Conclusions and
                                           Recommendations
Our review of administrative costs claimed by IL-BDDS disclosed that obligations
reported to SSA were overstated by $4,034,660 as a result of using provisional indirect
cost rates. Also, IL-BDDS was unable to provide supporting documentation that it limits
CE payments to the highest allowable rates. In addition, we identified $668,312
recorded in the incorrect FYs, of which IL-BDDS agreed $228,250 was claimed for
reimbursement in the wrong FY.

We recommend that SSA:

1. Instruct IL-DHS to refund $4,034,660 for indirect costs inappropriately charged to
   SSA for FYs 1999 through 2001.

2. Improve its oversight of CE fees and limit future payments to the highest rate
   allowable by Federal or other State agencies in Illinois.

3. Instruct IL-DHS to reclassify $228,250 erroneously reported as FY 1998 rather than
   FY 1999 costs.

4. Instruct IL-DHS to establish procedures for reporting and claiming costs in the
   correct FY.

AGENCY COMMENTS
SSA noted that the indirect cost adjustments resulted from an established process
rather than the audit. It also revised the adjustment due to a change made to the
allocation base during the finalization process. Regarding the second recommendation,
SSA stated IL-BDDS failed to provide the OIG with the State fee schedule used in
setting CE rates that was in compliance with Federal rate setting requirements. SSA
agreed that IL-BDDS claimed $228,250 in the wrong FY. However, SSA added that the
remaining $440,000 we identified as recorded in the wrong FY resulted from our use of
an erroneous accounting report prepared by IL-BDDS. SSA stated that IL-BDDS has
since corrected the error and the costs were claimed in the correct FY. SSA agreed
with the fourth recommendation.

OIG RESPONSE
We identified costs in the CAP allocated to IL-BDDS as indirect that provided no benefit
to the Agency. We discussed this issue with the cognizant negotiator from HHS who
concurred with our conclusions. The negotiator noted that the final indirect cost rates
would be significantly below the provisional rates. The fact the rates were negotiated
before we issued our report does not detract from the finding. We verified that SSA’s


Administrative Costs Claimed by the Illinois BDDS (A-05-02-22019)                   7
computation of allowable indirect costs was correct and revised the report accordingly.
We also agreed that IL-BDDS’ use of provisional indirect rates was the correct
procedure when the State submitted its cost reports. We revised our report to disclose
indirect costs were properly claimed based on the rates in effect.

Regarding SSA’s comments on recommendation two, during the audit we were not
provided with a State medical fee schedule. We, therefore, were unable to determine
whether IL-BDDS used a State rate schedule in establishing CE rates that satisfied
Federal requirements. However, we agree that the amount we identified in our report
as “overstated obligations” should exclude our estimated potential cost savings related
to the use of Medicare rates to establish CE fees.

We were not provided sufficient information to determine whether the $440,062 in
medical costs we reported as recorded in the wrong FY were, in fact, claimed in the
correct year. IL-BDDS recently sent us a revised accounting report, but the report did
not provide adequate data for us to determine whether the costs were claimed for
reimbursement in the correct FYs.




Administrative Costs Claimed by the Illinois BDDS (A-05-02-22019)               8
                                                        Other Matters
We followed up on a finding from the single audit of the State of Illinois for the FY ended
June 30, 2000, concerning the lack of supporting documentation for payroll costs. The
finding related to the failure of IL-BDDS to document the percentage of effort that
personnel spent on the Federal program and the State SSI Advocacy program. Our
review disclosed that the SSA Regional Commissioner, Region V, signed a MOU which
did not require IL-BDDS to document the percentage of effort spent on the State SSI
Advocacy program. Furthermore, the MOU waived reimbursement of all costs
associated with the administration of the SSI Advocacy program. Therefore, we
consider the issue to be resolved.




Administrative Costs Claimed by the Illinois BDDS (A-05-02-22019)                  9
                                        Appendices




Audit of the Administrative Costs Claimed by the Illinois BDDS (A-05-02-22019)
                                                                            Appendix A

Sampling Methodology
Our sampling methodology encompassed the following four general areas of costs as
reported on the Social Security Administration’s Form 4513: (1) personnel, (2) medical,
(3) indirect, and (4) all other non-personnel costs. We obtained computerized data from
Illinois Bureau of Disability Determination Services (IL-BDDS) for Federal Fiscal
Years (FY) 1999 through 2001 for use in statistical sampling.

Personnel Costs

We judgmentally sampled 20 employees and contractors from 2 randomly selected pay
periods in FY 2001. We tested the payroll records to ensure individuals were paid
correctly and payroll was adequately documented.

Medical Costs

We randomly sampled 300 items (100 items from each FY) from the population of
medical evidence of record and consultative examinations (CE). We also selected the
6 CE codes with the greatest number and dollar amount of invoices paid. Collectively,
they represented 56 percent of all CE costs. We limited our review of invoices for these
6 CE codes to physicians with 100 or more paid invoices during the FY. We compared
the invoice amounts to Medicare rates to determine whether IL-BDDS paid more than the
Medicare rate by locality for the CE codes.

Indirect Costs

During our review, we obtained final indirect cost rates for FYs 1999 and 2000. Since
IL-BDDS used a higher rate to claim indirect costs, we calculated an overpayment in all
3 years of our review.

All Other Nonpersonnel Costs

We selected a stratified random sample of 300 items (100 expenditures from each FY) of
all other nonpersonnel costs. We stratified all other nonpersonnel costs into
12 categories: (1) general expenses, (2) printing, (3) consumables, (4) communications,
(5) training and travel, (6) freight express drainage, (7) repairs and maintenance,
(8) personnel services and fringes, (9) postage, (10) equipment, (11) building use and
(12) medical consultants. We selected a stratified random sample of 100 items from each
FY based on the percentage of costs in each category to total costs.




Audit of the Administrative Costs Claimed by the Illinois BDDS (A-05-02-22019)
                                                                                          Appendix B
        Illinois Bureau of Disability Determination
        Services Consultative Examination Costs

     FY 1999 MEDICAL CONSULTATIVE EXAMINATION COSTS
    IL-BDDS
     CODE/             NUMBER OF             MEDICARE       ALLOWABLE              CLAIMED        UNALLOWABLE
   LOCATIONS            INVOICES               RATE           COSTS                 COSTS            COSTS

Special Medical Exam: Formal Diagnostic Consultation, Internist

       1800                                   99203
SUBURBS                         2,524    $        85.91    $       216,837     $        261,220   $     44,383
CHICAGO                        22,880    $        88.22    $     2,018,474     $      2,402,416   $    383,942
DOWNSTATE                       6,650    $        77.60    $       516,040     $        694,780   $    178,740
EAST ST. LOUIS                    226    $        81.14    $        18,338     $         29,832   $     11,494
Subtotal                       32,280                      $     2,769,689            3,388,248   $    618,559

Test for intellectual capacity to include WAIS-lll (Wechsler Adult Intelligence Scales lll)
       2100                                   96100
SUBURBS                            611   $        93.90    $        57,373     $         61,100   $      3,727
CHICAGO                          2,617   $        97.85    $       256,073     $        261,700   $      5,627
DOWNSTATE                          391   $        76.98    $        30,099     $         39,100   $      9,001
EAST ST. LOUIS                     141   $        83.99    $        11,843     $         14,100   $      2,257
Subtotal                         3,760                     $       355,388     $        376,000   $     20,612

Ventilation studies before and after bronchodilator, 3 FEV1 attempts and total vital capacity
      94060                                   94060
CHICAGO                          4,590 $          63.16 $          289,904 $            436,050 $      146,146
DOWNSTATE                          369 $          51.86 $           19,136 $             35,055 $       15,919
Subtotal                         4,959                  $          309,040 $            471,105 $      162,065

Test for intellectual capacity to include WISC-lll (Wechsler Intelligence Scales for Children)
      98246                                   98246
CHICAGO                          3,367 $          97.85 $          329,461     $        336,700   $      7,239
SUBURBS                            698 $          93.90 $           65,542     $         69,800   $      4,258
DOWNSTATE                          279 $          76.98 $           21,477     $         27,900   $      6,423
Subtotal                         4,344                  $          416,480     $        434,400   $     17,920

TOTALS                         45,343                      $     3,850,597 $          4,669,753 $      819,156




Administrative Costs Claimed by the Illinois BDDS (A-05-02-22019)                                       B-1
      FY 2000 MEDICAL CONSULTATIVE EXAMINATION COSTS
    IL-BDDS
     CODE/            NUMBER OF          MEDICARE         ALLOWABLE            CLAIMED       UNALLOWABLE
   LOCATIONS           INVOICES            RATE             COSTS               COSTS           COSTS

Special Medical Exam: Formal Diagnostic Consultation, Internist
       1800                             99203
CHICAGO                   19,970 $          103.76         2,072,087       $     2,096,850   $         24,763
SUBURBS                     3,452 $         100.89           348,272       $       364,565   $         16,293
DOWNSTATE                   5,485 $          90.25           495,021       $       577,065   $         82,044
EAST ST. LOUIS              1,175 $          94.76           111,343       $       123,375   $         12,032
Subtotal                  30,082                    $     3,026,723        $     3,161,855   $        135,132

Test for Intellectual Capacity to Include WAIS-lll (Wechsler Adult Intelligence Scales lll)
       2100
SUBURBS                            760             97.28 $       73,933 $          76,000 $             2,067
DOWNSTATE                          752             79.79 $       60,002 $          75,200 $            15,198
Subtotal                         1,512                   $     133,935 $          151,200 $            17,265

Ventilation Studies Before and After Bronchodilator, 3 FEV1 Attempts and Total Vital Capacity
       94060                              94060
CHICAGO                       3,395 $          62.78 $       213,138 $        322,430 $               109,292
DOWNSTATE                       655 $          51.71 $         33,870 $        62,161 $                28,291
Subtotal                      4,050                     $    247,008 $        384,591 $               137,583

Test for Intellectual Capacity to Include WISC-lll (Wechsler Intelligence Scales for Children lll)
       98246                                96100
SUBURBS                            458 $          97.28 $         44,554 $         45,800 $                1,246
DOWNSTATE                          364 $          79.79 $         29,044 $         36,400 $                7,356
Subtotal                           822                   $        73,598 $         82,200 $                8,602

TOTALS                         36,466                     $    3,481,264 $       3,779,846 $          298,582




Administrative Costs Claimed by the Illinois BDDS (A-05-02-22019)                                    B-2
FY 2001 MEDICAL CONSULTATIVE EXAMINATION COSTS
     IL-BDDS
      CODE /          NUMBER OF       MEDICARE      ALLOWABLE        CLAIMED       UNALLOWABLE
    LOCATIONS          INVOICES         RATE          COSTS           COSTS           COSTS

Special Medical Exam: Formal Diagnostic Consultation, Internist
        1800                        99203
DOWNSTATE                  3,126 $      93.40 $       291,968 $         323,710 $             31,742
EAST ST. LOUIS             1,348 $      97.99 $       132,091 $         141,540 $              9,449
Subtotal                   4,474               $      424,059 $         465,250 $             41,191

Test for Intellectual capacity to include WAIS-lll(Wechsler Adult Intelligence Scales lll)
        2100                               96100
DOWNSTATE                        521 $     82.88 $        43,180 $        52,121 $             8,941
Subtotal                         521                $     43,180 $        52,121 $             8,941

Ventilation studies before and after bronchodilator, 3 FEV1 attempts and total vital capacity
       94060                               94060
CHICAGO                      2,068 $       67.06 $       138,680 $ 196,460 $                57,780
SUBURBS                        112 $       65.28 $         7,311 $     10,640 $               3,329
DOWNSTATE                      227 $       55.35 $        12,564 $     21,565 $               9,001
EAST ST. LOUIS                 107 $       58.63 $         6,273 $     10,165 $               3,892
Subtotal                     2,514                $      164,828 $ 238,830 $                74,002

Test for intellectual capacity to include WISC-III (Wechsler Intelligence Scales for Children III)
       98246                             96100
DOWNSTATE                        354 $      82.88 $        29,340 $       35,400 $              6,060
Subtotal                         354                 $     29,340 $       35,400 $              6,060

 TOTALS                       7,863                  $    661,407 $     791,601 $            130,194




Administrative Costs Claimed by the Illinois BDDS (A-05-02-22019)                             B-3
                                                                    Appendix C

Agency Comments




Administrative Costs Claimed by the Illinois BDDS (A-05-02-22019)
                                          SOCIAL SECURITY
 MEMORANDUM

 Date:     July 22, 2003                                                           Refer To: S2D5G2

 To:       Assistant Inspector General
           for Audit

 From:     Regional Commissioner
           Chicago

Subject:   Administrative Costs Claimed by the Illinois Bureau of Disability Determination Services (Your
           Request for Comments E-Mailed June 25, 2003) -- REPLY


           Attached are the Region’s comments on the subject draft report (A-05-02-22019).

           We appreciate the challenges and difficulties the audit team faced in reviewing a DDS the size
           of Illinois. This audit, in particular, was problematic due to a variety of circumstances. A State
           government reorganization placed the DDS in a newly-created “super-Agency”. The transition
           to this new structure prevented the timely completion of indirect cost agreements. Also, while
           documentation in support of the DDS’ medical fee schedule was readily available, it was not
           shared with the review team. Finally, a finding that medical payments were charged to the
           wrong fiscal year was based on faulty data provided by DDS’ parent agency. The timing of
           these unfortunate circumstances compounded the problems faced by the audit team.

           Thank-you for the opportunity to comment on the draft findings and recommendations.

           Questions about this memorandum may be directed to Jim Jamison, Financial Management
           Team Leader, at 312.575.4212.



                                                         /s/
                                                    James F. Martin

           Attachment

           cc:   Deputy Commissioner for Operations
                 Deputy Commissioner for Finance Assessment and Management




           Administrative Costs Claimed by the Illinois BDDS (A-05-02-22019)                              C-1
Comments on findings/recommendations included in draft report “Administrative Costs Claimed
by the Illinois Bureau of Disability Determination Services (OIG Audit No. A-05-02-22019)”:

1. Finding/Recommendation: Instruct IL-DHS to refund $4,917,423 for indirect costs
   inappropriately charged to SSA for FYs 1999 through 2001.

   We agree that the Illinois DDS over-obligated indirect costs in FYs 1999-2001. However, we
   question that this issue is an appropriate audit finding. Additionally, we are concerned with
   the conclusion reached in the report (Page 8) that “the overstated obligations were caused
   by using improper indirect cost rates”.

       •   The Agency has a long-established process for adjusting indirect cost charges when
           final indirect rates are determined. This process, which strictly adheres to regulatory
           policy, allows indirect costs to be claimed using an agreed upon “provisional” rate
           (generally, this is the last final/approved rate).

       •   During the FYs in question, the DDS appropriately claimed indirect costs using a
           provisional rate of 13.9 percent, as instructed in the indirect cost rate agreement in
           force at that time. It was not until a new provisional rate of 9 percent was established
           (October 2002) that any portion of these claimed charges could be considered
           overstated. The final rates for FYs 1999 and 2000, and the new provisional rate for
           all subsequent periods (used by the audit team to calculate the “overdraw”) were not
           established until April 2003. This was several months after the audit team had
           completed their fieldwork in the DDS.

       •   The DDS independently applied the new rates soon after the new agreement was
           signed. Fiscal reports (SSA-4513s) submitted in January and April 2003 clearly
           show the DDS self-reported the overstated indirect costs for FYs 1999-2002. This
           was done in the normal course of SSA/DDS procedures.

   Whether or not this finding is removed from the final audit report, we believe the amount of
   funds in question needs modification. In addition to establishing final and provisional cost
   rates, the indirect cost agreement dated April 21, 2003, modified the indirect cost base to
   include all fringe benefits. Previously, the base (to which the indirect cost rate is applied)
   excluded charges for employee group insurance. Using this larger base, the chart on Page
   4 (if this finding is still included in the final report) should be modified as follows:

     FY      PERCENTAGE          AMOUNT CLAIMED           ALLOWABLE          UNALLOWABLE
    1999     (see note below)       $3,790,148             $2,662,014          $1,128,134
    2000           7.5              $3,599,266             $2,183,235          $1,416,031
    2001           7.5              $3,812,458             $2,321,963          $1,490,495

            TOTALS                   $11,201,872            $7,167,212          $4,034,660

   Note: The calculation of allowable costs was based on actual negotiation rates, 9.6 percent
   for the first 3 quarters and 7.5 percent for the 4th quarter of FY 1999.




Administrative Costs Claimed by the Illinois BDDS (A-05-02-22019)                              C-2
2. Finding/Recommendation: Instruct the IL-DHS to improve its oversight of CE fees
   and limit future payments to the highest rate allowable by Federal or other State
   agencies in Illinois.
   We agree that the DDS is required to maintain documentation that the rate of payment for
   medical evidence and CEs does not exceed the highest rate paid by Federal or public
   agencies in the State for the same or similar services [20 CFR 404.1519K (a)]. While we
   are uncertain why this information was not made available to the audit team, the DDS fee
   schedule has historically been based on fees paid by its parent agency, the IL-DHS. Also,
   the IL-DHS’s fees are routinely “crosswalked” with those paid by the Illinois Department of
   Public Aid. As such, the DDS fee schedule is in full compliance with the previously cited
   regulation. In fact, the DHS and the DDS share a vendor payment system that prohibits
   payment in excess of the DHS’s schedule. We have reminded the DDS staff that proper
   documentation (e.g., a printout of the DHS fee schedule) should be maintained in the DDS.

   Regarding the potential savings if the DDS would follow the Medicare fee schedule, this
   issue has previously been addressed by the Agency. In OIG Audit No. A-07-99-21004
   (Appendix D – Agency Comments) the Acting Commissioner stated, “We disagree with the
   assertion in the Executive Summary that medical services provided for Medicare and DDSs
   are the same or very similar and that there is no reason for DDSs to reimburse medical
   providers at fees higher than those allowed by Medicare”. There are several reasons for
   higher reimbursement rates:
       •   The nature of the "service" differs (reimbursement for medical treatment versus
           evaluation of disability);

       •   The price-setting mechanism differs (Medicare reimbursements have been limited by
           Congressional action in recent years; marketplace considerations may affect CE
           costs);

       •   SSA may reasonably pay a higher price for a CE in order to get fast and reliable
           medical information to process a medical determination;

       •   States may use other public (Federal or State) fee schedules.

   While there is no dollar amount included in this finding, the report identifies “potential
   savings” of $1.2 million in using the Medicare fee schedule, and includes this amount in the
   $6 million of “overstated obligations” in the opening paragraph on Page 8. We believe the
   conclusions on this page should reflect actual monetary findings and not “potential savings”.

3. Finding/Recommendation: Instruct IL-DHS to reclassify $668,344 of expenditures
   incorrectly reported on the SSA-4513s in the wrong FYs.

   This finding identified $440,000 in medical payments that had been charged to the wrong
   FY. However, other State fiscal reports show the charges to be appropriate. On further
   investigation, the DDS determined that a special computer “run”, which was the basis for this
   finding, contained a coding error. The program has been corrected, and the report rerun.
   The revised report indicates that all charges were made to the appropriate FY, and that no
   reclassification of medical payments is necessary.




Administrative Costs Claimed by the Illinois BDDS (A-05-02-22019)                             C-3
   Concerning the remaining $228,250 obligated for postage and leasehold improvements, we
   agree with this recommendation. The Illinois DDS will be making the necessary
   modifications to SSA-4513s for the FYs in question. However, we believe it should be noted
   that this recommendation did not find any of these expenditures to be inappropriate.

4. Finding/Recommendation: Instruct IL-DHS to establish procedures for reporting
   expenditures in the correct FY.

   We agree with this recommendation and have instructed the DDS to establish procedures,
   or modify existing procedures, to ensure obligations are reported in the correct FY.




Administrative Costs Claimed by the Illinois BDDS (A-05-02-22019)                        C-4
                                                                           Carol L. Adams. Ph.D., Secretary
Rod R. Blagojevich, Governor
                                           Office of Rehabilitation Services
                                     Bureau of Disability Determination Services
   P.O. Box 19250 • Springfield, IL 62794-9250 • 217/782-7160 (VOICE) • 217/524-2985 (TTY) • 217/785-7714 (FAX)



MEMORANDUM

TO:           Steven L. Schaeffer
              Assistant Inspector General for Audit

FROM:         Carol L. Adams, Ph.D.
              Secretary, Department of Human Services

DATE:         July 25, 2003

SUBJECT:      Administrative Costs Claimed by the Illinois Bureau of Disability
              Determination Services


Attached are the Illinois Bureau of Disability Determination Services (BDDS) comments
on the subject draft audit report (A-05-02-22019).

We believe that the initial finding dealing with indirect costs is inappropriate. The
Bureau followed standard procedure with respect to the calculation of indirect costs.
The finding concerning the amount paid for consultative examinations (CEs) follows
past audit findings. The Bureau has been following Office of Inspector General (OIG)
opinion concerning medical fees paid for CEs. The finding concerning medical
payments charged to the wrong fiscal year is in question as the BDDS has determined
this finding was based on faulty data provided to the auditors and in actuality the
payments were charged to the correct years. The finding of charging incorrect vouchers
to the wrong Federal Fiscal year was accurate and has been corrected.

Thank you for the opportunity to comment on the draft findings and recommendations.

Questions about this memorandum may be directed to Ann P. Robert, Deputy Director
at (217) 782-8283.

Attachment

Cc:     Deputy Commissioner for Operations
        Deputy Commissioner for Finance Assessment and Management


Administrative Costs Claimed by the Illinois BDDS (A-05-02-22019)                              C-5
        Response to findings/recommendations included in draft report
       “Administrative Costs Claimed by the Illinois Bureau of Disability
          Determination Services (OIG Audit No. A-05-02-22019)”:
1. Finding/Recommendation: Instruct Illinois Department of Human Services to refund
   $4,917,423 for indirect costs inappropriately charged to SSA for FYs 1999 through
   2001.

   The Illinois Bureau of Disability Determination Services (BDDS) did over-obligated indirect
   costs in FYs 1999-2003. The BDDS does question the issue of it being an appropriate
   audit finding. The obligations in question were calculated utilizing the current and available
   indirect cost rates, which were appropriate.

   The BDDS has always adjusted indirect cost charges when final indirect rates were
   determined. This process, follows regulatory policy, allows indirect costs to be claimed
   using an agreed upon “provisional” rate until a new rate is finalized. The BDDS applied the
   new rates soon after the new agreement was signed. Fiscal reports (SSA-4513s) submitted
   in January and April 2003 shows the BDDS reported the overstated indirect costs for FYs
   1999-2002. This was done in the normal course of SSA/DDS procedures, not as a result of
   an audit investigation.

   The BDDS believes they appropriately claimed indirect costs using a provisional rate of 13.9
   percent, as instructed in the indirect cost rate agreement in force at that time. It was not
   until a new provisional rate was established (October 2002) that any portion of these
   claimed charges could be considered overstated. The final rates for FYs 1999 and 2000,
   and the new provisional rate for all subsequent periods were not established until April 2003
   well after the auditors fieldwork had been completed in the BDDS.

   The newly established final and provisional cost rates agreement dated April 21, 2003,
   modified the indirect cost base to include all fringe benefits. In the previous indirect cost
   agreement, the base (to which the indirect cost rate is applied) excluded charges for
   employee group insurance.

   Using this larger base, the chart on Page 4 (if this finding is still included in the final report)
   should be modified as follows:

     FY      PERCENTAGE           AMOUNT CLAIMED             ALLOWABLE           UNALLOWABLE
    1999     (see note below)        $3,790,148               $2,662,014           $1,128,134
    2000           7.5               $3,599,266               $2,183,235           $1,416,031
    2001           7.5               $3,812,458               $2,321,963           $1,490,495

            TOTALS                    $11,201,872              $7,167,212            $4,034,660

   Note: The calculation of allowable costs was based on actual negotiation rates, 9.6 percent
   for the first 3 quarters and 7.5 percent for the 4th quarter of FY 1999.




Administrative Costs Claimed by the Illinois BDDS (A-05-02-22019)                                   C-6
2. Finding/Recommendation: Instruct the IL-DHS to improve its oversight of CE fees and
   limit future payments to the highest rate allowable by Federal or other State agencies
   in Illinois.

   The BDDS agrees that they are required to maintain documentation that the rate of payment
   for medical evidence and CEs does not exceed the highest rate paid by Federal or public
   agencies in the State for the same or similar services [20 CFR 404.1519K (a)]. While we
   are uncertain why this information was not made available to the audit team, the BDDS fee
   schedule has historically been based on fees paid by our parent agency, the Illinois
   Department of Human Services (DHS). DHS fees are monitor at least annually with those
   paid by the Illinois Department of Public Aid. The BDDS fee schedule is in full compliance
   with the previously cited regulation. The BDDS share a vendor payment system which is
   supported by DHS that prohibits payment in excess of the DHS’s schedule.

   The BDDS agrees with and has been adhering to the OIG Audit No. A-07-99-21004 Acting
   Commissioner statement, “We disagree with the assertion in the Executive Summary that
   medical services provided for Medicare and DDSs are the same or very similar and that
   there is no reason for DDSs to reimburse medical providers at fees higher than those
   allowed by Medicare”. There are several reasons for higher reimbursement rates:
       •   The nature of the "service" differs (reimbursement for medical treatment versus
           evaluation of disability);

       •   The price-setting mechanism differs (Medicare reimbursements have been limited by
           Congressional action in recent years; marketplace considerations may affect CE
           costs);

       •   SSA may reasonably pay a higher price for a CE in order to get fast and reliable
           medical information to process a medical determination;

       •   Higher fees maybe paid at times due to the inability to find medical providers in the
           southern portion of the state to perform needed exams;

       •   States may use other public (Federal or State) fee schedules.

   The BDDS believes this should not be a finding since we are following the instructions from
   the response to a previous OIG audit.

3. Finding/Recommendation: Instruct IL-DHS to reclassify $668,344 of expenditures
   incorrectly reported on the SSA-4513s in the wrong FYs.

   This finding identified $440,000 in medical payments that had been charged to the wrong
   FY. The BDDS determined that a special computer “run” for the auditors, which was the
   basis for this finding, contained a coding error. The program has been corrected, and the
   report rerun. The revised report indicates that all charges were made to the appropriate FY,
   and we feel that no reclassification of medical payments is necessary. The corrected
   program is available for review if necessary.




Administrative Costs Claimed by the Illinois BDDS (A-05-02-22019)                              C-7
   The BDDS agrees with the recommendation of $228,250 obligated for postage and
   leasehold improvements being charged to the incorrect year. The BDDS will be making the
   necessary modifications to SSA-4513s for the FYs in question. It is important to note that
   this recommendation did not find any of these expenditures to be inappropriate.

5. Finding/Recommendation: Instruct IL-DHS to establish procedures for reporting
   expenditures in the correct FY.

   We agree with this recommendation and will strive to ensure all obligations and
   expenditures are reported in the correct FY.




Administrative Costs Claimed by the Illinois BDDS (A-05-02-22019)                         C-8
                                                                       Appendix D

OIG Contacts and Staff Acknowledgments
OIG Contacts
       Bill Fernandez, Director, Western Audit Division, (510) 970-1739

       Teresa Williams, Deputy Director, (312) 353-0331

Acknowledgments
In addition to those named above:

       Robert Lenz, Senior Auditor

       Richard Dubin, Auditor

       Elizabeth Juarez, Auditor

       Sherman Doss, Auditor

For additional copies of this report, please visit our web site at www.ssa.gov/oig or
contact the Office of the Inspector General’s Public Affairs Specialist at (410) 966-1375.
Refer to Common Identification Number A-05-02-22019.




Administrative Costs Claimed by the Illinois BDDS (A-05-02-22019)
                          DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
Illinois Bureau of Disability Determination Services
                  Overview of the Office of the Inspector General


                                        Office of Audit

The Office of Audit (OA) conducts comprehensive financial and performance audits of the
Social Security Administration’s (SSA) programs and makes recommendations to ensure that
program objectives are achieved effectively and efficiently. Financial audits, required by the
Chief Financial Officers' Act of 1990, assess whether SSA’s financial statements fairly present
the Agency’s financial position, results of operations and cash flow. Performance audits review
the economy, efficiency and effectiveness of SSA’s programs. OA also conducts short-term
management and program evaluations focused on issues of concern to SSA, Congress and the
general public. Evaluations often focus on identifying and recommending ways to prevent and
minimize program fraud and inefficiency, rather than detecting problems after they occur.

                               Office of Executive Operations
The Office of Executive Operations (OEO) supports the Office of the Inspector General (OIG)
by providing information resource management; systems security; and the coordination of
budget, procurement, telecommunications, facilities and equipment, and human resources. In
addition, this office is the focal point for the OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act. OEO is also responsible for performing internal reviews to ensure
that OIG offices nationwide hold themselves to the same rigorous standards that we expect from
SSA, as well as conducting investigations of OIG employees, when necessary. Finally, OEO
administers OIG’s public affairs, media, and interagency activities, coordinates responses to
Congressional requests for information, and also communicates OIG’s planned and current
activities and their results to the Commissioner and Congress.

                                    Office of Investigations
The Office of Investigations (OI) conducts and coordinates investigative activity related to fraud,
waste, abuse, and mismanagement of SSA programs and operations. This includes wrongdoing
by applicants, beneficiaries, contractors, physicians, interpreters, representative payees, third
parties, and by SSA employees in the performance of their duties. OI also conducts joint
investigations with other Federal, State, and local law enforcement agencies.

                              Counsel to the Inspector General
The Counsel to the Inspector General provides legal advice and counsel to the Inspector General
on various matters, including: 1) statutes, regulations, legislation, and policy directives
governing the administration of SSA’s programs; 2) investigative procedures and techniques;
and 3) legal implications and conclusions to be drawn from audit and investigative material
produced by the OIG. The Counsel’s office also administers the civil monetary penalty program.
